Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the City of Waterbury
Waterbury, Connecticut

Report No. GR-70-04-004


May 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the City of Waterbury (Waterbury).  The purpose of the grants is to enhance community policing.  Waterbury was awarded a total of $4,438,984 to hire 49 new police officers and redeploy the equivalent of 30.6 existing full-time police officers from administrative duties to community policing.
We determined Waterbury is in material non-compliance with COPS grant requirements having found weakness in four of the seven areas we tested:  budgeting for officers, local match requirements, reimbursement requests, and officer redeployment. As a result of the deficiencies identified below, we question $2,588,658 in grant and local matching funds.1

Waterbury did not maintain financial records that supported the amounts of all its local matching funds or that the sources of all local matching funds were not previously budgeted for law enforcement for both its AHEAD/UHP and MORE 98 grants.


Waterbury did not maintain financial records that supported amounts claimed as local matching expenditures for its MORE 98 grant.


Waterbury included unallowable costs in requests for reimbursement for its AHEAD/UHP grants.


Waterbury could not support expenditures made for its MORE 98 grant.


Waterbury began its procurement process for its MORE 98 grant before the award start date.


Waterbury did not track and could not support the redeployment of the required number of FTE officer positions into community policing.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1978 as amended contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for a definition of questioned costs.